                                                               NATIONAL SCIENCE FOUND ATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGA nONS

                                                         CLOSEOUT MEMORANDUM

      Case Number: 109120072                                                                                      Page 1 of 1



               We received multiple allegations about a company 1that received an NSF grant,2 and determined
               that only one allegation fell within NSF jurisdiction/ namely, that the company failed to pay its
               employees for their work on the NSF grant. We reviewed financial and expense information
               provided by the company, and concluded that the company had adequate documentary support
               for the payments to employees that were claimed in progress reports to NSF.

               We found no substantiation for the claim that the grantee failed to pay his employees for their
               work on the NSF grant. Accordingly, this investigation is closed with no further action taken.




                The other allegations involved the production of commercial items, and did not contain sufficient detail to
               associate them with any task or activity under the NSF grant.



     NSF OIG Form 2 (11/02)
!
I
 ~
